   United States Department of Agriculture
   Office of Inspector General




American Recovery and Reinvestment Act of
2009, National School Lunch Program
Equipment Assistance Grants




                                             Audit Report 27703-0001-HQ
                                             February 2012
                       United States Department of Agriculture
                              Office of Inspector General
                                Washington, D.C. 20250




DATE:          February 15, 2012

AUDIT
NUMBER:        27703-0001-HQ

TO:            Audrey Rowe
               Administrator
               Food and Nutrition Service

ATTN:          Mark Porter
               Acting Director
               Office of Internal Control, Audits and Investigations

FROM:          Gil H. Harden
               Assistant Inspector General
                 for Audit

SUBJECT:       American Recovery and Reinvestment Act of 2009 National School
               Lunch Program Equipment Assistance Grants

This report presents the results of the subject review. Your written response to the
official draft report, dated January 24, 2012, is included in its entirety at the end of the
report. Your response to the recommendation and the Office of Inspector General’s
position are incorporated into the report. Based on your written response, we are
accepting your management decision for the recommendation in the report and no further
response to us is necessary.

Please follow your internal agency procedures in forwarding final action correspondence
to the Office of the Chief Financial Officer, Director, Planning and Accountability
Division. In accordance with Departmental Regulation 1720-1, final action needs to be
taken within 1 year of management decision to prevent being listed in the Department’s
annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff
during this audit.
Table of Contents

Executive Summary .................................................................................................1
Background and Objectives ....................................................................................4
   Finding 1: FNS Should Strengthen its Oversight of Grant Award Processes
   ................................................................................................................................5
         Recommendation 1 ......................................................................................10
   Finding 2: FNS Should Ensure Accurate and Timely Recovery Act
   Reporting .............................................................................................................12
Scope and Methodology.........................................................................................13
Abbreviations .........................................................................................................14
Agency’s Response .................................................................................................15
American Recovery and Reinvestment Act of 2009, Nutrition School
Lunch Program Equipment Assistance Grants

Executive Summary

The American Recovery and Reinvestment Act of 2009 (Recovery Act) allocated $100 million
in grant funds to the National School Lunch Program (NSLP), which is administered by the Food
and Nutrition Service (FNS). These grants allowed schools to purchase and renovate their food
service equipment. The Recovery Act mandated that the equipment assistance grants be
competitively awarded on the basis of need, with priority given to schools in which at least half
the students are eligible for free or reduced price meals. Our audit evaluated FNS’ national and
regional oversight of the grants, focusing on the effectiveness of controls. Based on our review
of 11 school food authorities (SFA) in 5 States, we found that the FNS national office (NO) did
not create adequate, proactive controls to ensure that grants were awarded based on Recovery
Act criteria and accurate data, and did not ensure timely reporting on Recovery.gov. 1

The FNS regional offices (RO) did not review the grant award processes created by State
Agencies (SA) before the Recovery Act funds were awarded. The NO stated it did not require
ROs to perform a pre-award review because they wanted to comply with the Recovery Act’s
goal of swiftly allocating funds. As a result, three of the five States in our review awarded over
$5 million in grants, utilizing processes that did not fully meet the Recovery Act’s criteria.2

For Recovery Act funds, the Office of Management and Budget (OMB) required oversight steps
beyond standard practice.3 Additional OMB guidance required that internal controls be
developed with “systematic and proactive measures.”4 A review of SA grant award processes
and completed award applications would have provided ROs with a better opportunity to ensure
compliance.

Specifically, we found:

    ·   New Mexico used inaccurate data to rank and award Recovery Act funds to its schools.5
        After OIG identified this, the SA reallocated the remaining funds, $98,000, to eligible
        schools that were initially denied funds based on the inaccurate data.
    ·   South Carolina did not use the required criterion of “equipment need” in its grant award
        evaluations, and also placed an unauthorized cap on the amount of funds that a single
        SFA could receive.

1
  This audit report presents the results of phases 1 and 2, as described in the Department of Agriculture (USDA)
OIG’s Recovery Act audit plan.
2
  FNS allocated $924,743 to New Mexico, $1,836,195 to South Carolina, and $2,275,738 to Tennessee in equipment
assistance grant funds.
3
  OMB, M-09-15 Updated Implementing Guidance for ARRA of 2009, April 3, 2009.
4
  OMB, A-123 Management’s Responsibility for Internal Control, December 21, 2004.
5
  The award process New Mexico created adequately took into account schools’ need for a piece of equipment.
However, when this process was implemented, New Mexico used incorrect data to rank schools, which caused the
criterion of need to not be fully accounted for.

                                                                   AUDIT REPORT 27703-0001-HQ                 1
    ·    Tennessee did not conduct a competitive process to award grants based on need and free
         or reduced price meal participation. Instead, it awarded one grant to every SFA in the
         State. We identified 39 highly ranked schools that were denied $739,000 in grants
         because lower ranked schools received funds.

In addition, the NO incorrectly reported Recovery Act spending data on Recovery.gov for the
State of New Mexico. The NO reported incorrect outlay data on the Financial Activity Report
because, according to New Mexico SA officials, the State’s system used to accumulate
equipment purchasing data for reporting was not functioning properly. New Mexico’s
equipment assistance grant outlays were understated on Recovery.gov for a period of 5 months,
resulting in this information not being reported to the public in a timely manner. OMB’s
Recovery Act guidance requires reporting to be updated on a weekly basis to give Congress and
taxpayers the ability to track and monitor all Recovery funds with the level of transparency and
accountability envisioned in the Act.6

We issued one Fast Report to FNS, dated February 2, 2010, stating that FNS did not review the
award processes created by the States, and therefore could not ensure that all grants would be
distributed based on Recovery Act criteria. We recommended that FNS should provide the
necessary oversight to ensure that the remaining funds are awarded based upon the need for
equipment assistance in participating schools, with priority given to schools in which not less
than 50 percent of the students are eligible for free or reduced price meals under the National
School Lunch Act. In its official response to our Fast Report,7 dated February 23, 2010, FNS
stated it was working closely with New Mexico SA officials to correct the problem in executing
the process. FNS also stated that it provided States with sufficient support and guidance to
ensure each RO and SA had a clear understanding of the grant requirements. NO officials also
stated they believed that performing a pre-award review would delay spending.

Based on our analysis, however, some level of pre-award review was possible.8 The NO
released guidance on how to conduct the award process on March 9, 2009, and many States were
able to release their grant application forms and award processes within two weeks of receiving
this guidance. Though NO guidance strongly encouraged SAs to complete the entire award
process to SFAs by June 8, 2009, ROs had more than 2 months to review the grant application
forms and selection methods before they were released to SFAs.

This report incorporates the issues noted in the Fast Report and is based on additional
information obtained as part of our fieldwork. During our fieldwork, we noted that
Recovery.gov indicated that all States disbursed the NSLP Recovery Act equipment assistance
grants as of September 2011. We also noted that SAs, included in our review, changed
allocation methods, providing funds to schools that had not received assistance, and FNS took
effective measures to correct the Recovery Act reporting of expenditures in New Mexico. Based
on these changes, we modified the recommendation noted in the Fast Report.

6
  OMB, M-09-15 Updated Implementing Guidance for ARRA of 2009, April 3, 2009.
7
  OIG’s Fast Report 27703-0001-HQ (1) was issued February 3, 2010.
8
  FNS received Recovery Act funding for equipment assistance grants in March 2009. The Recovery Act required
that funds be obligated by September 30, 2009.

2       AUDIT REPORT 27703-0001-HQ
Recommendation Summary
FNS should continue to update and implement adequate, proactive controls within its standard
competitive grant award processes, identifying areas that can be strengthened. This should
include procedures (as prescribed by FNS) to review selected requests for applications and grant
award evaluation processes prior to the SAs releasing the applications to potential subgrantees.
As noted during the course of this review, FNS took effective measures to correct the Recovery
Act reporting of expenditures in New Mexico; therefore, we are not issuing a recommendation
with the second finding contained in this report.

Agency Response
FNS supports the recommendation contained in this report and agreed to update the current
Management Evaluation process conducted by ROs to include a review of the requests for
applications and grant award evaluation processes prior to the SAs releasing the applications to
potential subgrantees. FNS estimates that corrective action will be completed by
November 30, 2012.

OIG Position

We accept FNS’ management decision for the recommendation.




                                                           AUDIT REPORT 27703-0001-HQ              3
Background and Objectives

Background

NSLP is a Federally-assisted meal program operating in over 101,000 public and non profit
private schools and residential child care institutions in 55 U.S. States and territories.9 The FNS
NO provides policy direction to its seven ROs, which ensure that SAs operate the program in
accordance with Recovery Act and OMB guidance.10 SAs, in turn, work with the local SFAs
responsible for the day-to-day operations of NSLP.

The Recovery Act was signed into law on February 17, 2009. The Recovery Act’s purposes
included preserving and creating jobs, swiftly allocating funds to promote economic recovery,
and assisting those most impacted by the recession. USDA received $28 billion in Recovery Act
funding for a number of program areas, including a one-time appropriation of $100 million in
grants for SFAs participating in NSLP to purchase, renovate, or replace food service
equipment.11

To receive funds, SFAs applied for NSLP equipment assistance grants through their respective
SAs. The Recovery Act stipulated that the competitive grant process be based upon the need for
equipment assistance in participating schools, with priority given to schools in which not less
than 50 percent of the students are eligible for free or reduced price meals under NSLP. While
adhering to these criteria, States were able to develop their own particular processes for the grant
competitions.12

Congress emphasized the need for accountability and transparency in the expenditure of
Recovery Act funds. OMB issued guidance requiring Federal agencies to establish rigorous
internal controls, oversight mechanisms, and other approaches to meet the accountability
objectives of the Recovery Act. FNS’ controls over standard grant programs include financial
management reviews and management evaluations, which provide procedures for reviewing
grant awards. FNS applied these standard controls for this one-time, Recovery Act grant
program.

Objectives
Our role, as mandated by the Recovery Act, is to conduct oversight of activities funded by the
Recovery Act. The purpose of our audit was to evaluate FNS’ oversight of NSLP equipment
assistance grant funds to determine whether appropriate controls existed, were suitably designed,
and operated effectively to ensure the funds would be used for their intended purpose.13


9
  The Richard B. Russell School Lunch Act created NSLP in 1946.
10
   SAs responsible for NSLP administration are generally the State-level education or health agencies. U.S.
territories also received grant funds.
11
   FNS allocated funds to States based on their school meal administrative expense allocation for 2009.
12
   FNS instructed States to follow the same laws, regulations, principles, procedures, and practices in awarding
grants with Recovery Act funds as they were required to follow in awarding other grants within their State.
13
   This audit report presents the results of phases 1 and 2, as described in USDA OIG’s Recovery Act audit plan.

4     AUDIT REPORT 27703-0001-HQ
Finding 1: FNS Should Strengthen its Oversight of Grant Award Processes
Three out of five States that we reviewed did not award Recovery Act grants based on
“equipment need.” This occurred because FNS ROs did not review the State grant award
applications and evaluation process prior to the State releasing the applications to the SFAs for
completion. In addition, FNS NO officials stated that performing pre-award reviews would not
be a good use of already stretched resources. As a result, this increased the risk that grants were
awarded to ineligible applicants and that eligible applicants were denied grant funds.

The Recovery Act stipulated that States competitively award grants based on “the need for
equipment assistance in participating schools,” with priority given to schools in which not less
than 50 percent of the students are eligible for free or reduced price meals. For general
oversight, OMB issued a memorandum requiring agencies receiving Recovery Act funds to take
steps beyond standard practice to mitigate the unique implementation risks of the Recovery Act.
It also states that agencies should initiate additional measures to address higher risk areas.14
Other OMB guidance states that agencies must take “systematic and proactive measures” to
develop internal controls.15

NO officials stated they believed that performing a pre-award review would delay spending.
While the pace set by the Recovery Act required swift action, FNS put too much emphasis on
quickly expending funds. Based on our analysis, OIG believes that some form of pre-award
review was possible.16 The NO released guidance as to how to conduct the award process on
March 9, 2009, and many States were able to release their grant application forms and award
processes within 2 weeks of receiving this guidance. Tennessee was able to release its grant
application form within 11 days of receiving this guidance on March 20. Given the NO’s own
award process deadline of June 8, ROs had more than 2 months to review the grant application
forms and selection methods before they were released to SFAs. A review of the forms and
award processes created by States could have helped mitigate, if not prevent, the problems
detailed in this report.

In addition, grant monitoring efforts were performed after the grants were awarded. The NO did
provide guidance to SAs regarding how the award process should be run and used telephone
calls and e-mail to discuss questions and concerns in an effort to communicate its expectations.
FNS also provided “Frequently Asked Questions” sheets that specifically addressed SFA grant
applications.17 In addition, the NO performed financial management reviews and management
evaluations to determine whether grant funds were used appropriately. These reviews are good
controls; however, they would not prevent FNS from awarding Recovery Act grant funds to
States that did not develop a competitive grant award process, as stipulated by the Recovery Act.


14
   OMB M-09-15, Updated Implementing Guidance for ARRA of 2009, April 3, 2009.
15
   OMB A-123, Management’s Responsibility for Internal Control, December 21, 2004.
16
   FNS received Recovery Act funding for equipment assistance grants in March 2009. The Recovery Act required
the funds to be obligated by September 30, 2009, while FNS guidance, SP 18-2009, strongly encouraged SAs to
complete the entire award process to SFAs by June 8, 2009.
17
   The NO issued SP 18-2009 providing guidance to all ROs and SAs on topics such as SFA grant applications,
award timelines, and reporting requirements.

                                                                  AUDIT REPORT 27703-0001-HQ                5
         New Mexico Used Unsupported Data to Rank Schools Rather than Equipment Need
         New Mexico did not award the Recovery Act funding to SFAs based on a demonstrated
         need for the requested equipment. Rather, New Mexico awarded the Recovery Act
         grants based solely on the eligibility percentages18 and we found these percentages to be
         inaccurate.

         OIG found discrepancies in 75 percent of the Recovery Act grants awarded in
         New Mexico. We reviewed all 107 grant award documents in New Mexico and noted
         differences between the official SA records and the eligibility percentages reported on the
         grant applications. For example, one school reported an eligibility percentage of 48 on its
         grant application. We verified that this figure was accurate by comparing it to the official
         SA system of record. However, the grant evaluation form, which is the document used
         for Recovery Act awards selection, reflected an unsupported eligibility percentage of 98.
         We requested documentation to support the eligibility change from 48 percent on the
         application to 98 percent on the evaluation form, but we were told it did not exist and
         could not be provided.

         SA officials reported that the eligibility rates were changed in an effort to use the most
         accurate data; however, no documentation was provided or available to support the
         changed eligibility percentages. Schools’ eligibility percentages were overstated in 46 of
         the 107 grants we reviewed in New Mexico. A total of 16 schools had their eligibility
         percentages understated, which meant that they were given a lower ranking than their
         actual ranking. We were unable to verify the accuracy of the changed eligibility
         percentages because they were not supported by the official system of record.

         In January 2010, we informed FNS’ Southwest RO of these issues, and FNS raised the
         issue to the New Mexico Public Education Department. The New Mexico Public
         Education Department worked with the RO to recalculate the awards. During a routine
         reallocation of unspent funds, the Public Education Department used the corrected
         rankings to reallocate $98,000 to eligible schools that were initially denied funds.

         South Carolina did not Adequately Evaluate Equipment Need

         South Carolina created a grant application form that did not include equipment need as a
         criterion or basis to determine applicant eligibility. In addition, South Carolina imposed
         an unauthorized cap of $25,000 on equipment applications for each SFA. A South
         Carolina SA official noted that their State Department of Education wanted to ensure that
         the majority of the grant funds would not go to one large school district.

         In March 2009, NO issued guidance19 stating that each SFA participating in NSLP is
         eligible to submit an application to receive a NSLP equipment assistance grant. The
         applications were to define the equipment being requested, classify, and categorize the

18
   Eligibility percentages represent the number of students in each participating school that are qualified to receive
free or reduced priced meals.
19
   The NO issued SP 18-2009 to all ROs and SAs.

6      AUDIT REPORT 27703-0001-HQ
           reason for requesting the equipment into one of four specified areas, and define the award
           criteria.

           The NO guidance specified that the request should assist in improving one of the aspects
           of the food program: 1) the quality of school foodservice meals that meet the dietary
           guidelines, 2) the safety of food served in the school meal programs, 3) the overall energy
           strategy of the school foodservices operations, or 4) allow SFAs to support expanded
           participation in a school meal program.20

           South Carolina’s application required the SFA to check off which of these objectives
           were met through the purchase of a piece of equipment. The equipment was to be listed
           on the forms in order of most needed to the least needed. However, qualitative
           information, such as how the equipment would help address the specific need or the
           condition of existing equipment, was not required. In addition, the selection criteria
           South Carolina provided to its grant evaluators did not list equipment need as a criterion.
           The SA had to evaluate each grant application form, assigning points based on the
           percentages of free and reduced meal eligibility rates, useful life of the equipment being
           purchased, and a check off box indicating there was some need.

           FNS stated that the equipment grant application does ask for the age of existing
           equipment; therefore, the need criterion is addressed. However, age alone does not
           necessarily define need. Some equipment can be in good working order for many years
           and not require replacement. If ROs reviewed the application form before the SA
           released it to the applicants, ROs would have had the opportunity to see that equipment
           need information was not being requested on the form.

           On February 2, 2010, OIG issued a Fast Report noting that FNS’ Southeast and
           Southwest ROs did not review the grant application process for their respective SAs. The
           NO disagreed with our conclusion that equipment need was not considered in the
           equipment grant award decision making process and stated that, if at least one focus area
           was included on the application, then the criterion of need would be demonstrated.
           However, by reviewing the below grant application form, we determined that South
           Carolina’s grant application form did not provide the SA grant application form evaluator
           with enough information to determine whether one applicant demonstrated a greater
           equipment need than another applicant.




20
     The NO guidance, SP 18-2009, suggested four “focus areas.”

                                                                  AUDIT REPORT 27703-0001-HQ         7
        Figure 1: Page from the South Carolina Grant Application Form21

        This shows the section of the form the NO was referring to when it discussed the inclusion
        of specified “focus areas.” We have flagged Section E with an arrow. This section
        illustrates the section of the application that did not validate the criterion of equipment
        need, as no space for narrative justification is provided.




        In addition, as a result of South Carolina imposing a ceiling for equipment requests, we
        noted 55 applications were denied. Further, 24 of these applications were denied funding
        because they pushed the SFA total above the $25,000 award limitation, an amount that
        was not specified in FNS guidance or the Recovery Act. The denied equipment requests
        totaled $265,000. Based on discussions with SA officials, the reason for the cap was to
        ensure that one or two SFAs would not receive the bulk of the grant funds. More
        emphasis was placed on ensuring that as many SFAs received grant funds as possible,
        rather than awarding the funds using a competitive process based on equipment need, as
        required by the Recovery Act.




21
  Figure 1 shows the section of the form FNS was referring to. We have flagged Section E, which illustrates that
the focus area section of the application did not validate the criterion of equipment need.

8     AUDIT REPORT 27703-0001-HQ
        Tennessee Denied Funding to Schools that Demonstrated a Greater Need for
        Equipment

        Tennessee granted a portion of Recovery Act funds to every SFA, rather than to just
        those that demonstrated the greatest need for the funding. While Tennessee’s
        applications included need as a criterion, its process for awarding grants did not take this
        fully into account. Instead, Tennessee awarded a Recovery Act grant to every SFA in the
        State. The Tennessee State Director of the School Nutrition Program said that it was
        trying to spread the funding around the State as much as possible by allowing each school
        district to have only one piece of kitchen equipment purchased with the Recovery Act
        funds.

        Tennessee used a two-step process to award equipment assistance grants. First, the SFAs
        were required to prioritize each piece of equipment requested from priority one to priority
        four. The SA divided these requests into four pools based on the four priority levels. For
        the second step, the SA ranked each request within its respective pool separately, using
        the Recovery Act criteria of need and eligibility percentages.

        Initially, this appears to be a reasonable approach. However, according to Tennessee SA
        officials, it was decided to award a grant to every SFA’s priority one request, regardless
        of its ranking, in an effort to ensure each SFA received a portion of the grant funds. By
        using this process for the initial grant award allotment, Tennessee only had enough funds
        for the first priority pool. As a result, one school from each SFA received one piece of
        equipment. This system allowed the lowest-ranked SFA to receive Recovery Act funds
        for its priority one request. SFAs with a high rank based on need and eligibility
        percentages also only received their priority one request—even if they documented the
        need for more equipment.

        In its response to our Fast Report, FNS stated that Tennessee’s method was fair and met
        the Recovery Act’s criteria. FNS noted that all but one school that received equipment
        grants had at least half their students eligible for free or reduced price lunches. We agree
        that Tennessee gave priority to schools with 50 percent or more participation percentage.
        However, the Recovery Act criterion of need was not sufficiently taken into account.
        Tennessee’s SA received 202 NSLP equipment requests. We found that 39 of these 202
        equipment requests were denied even though they had higher rankings than schools that
        received the grants.22 For instance, a high school was denied its request for a $24,000
        industrial dishwasher, while an elementary school—which was ranked lower than the
        high school—was awarded a $41,680 industrial dishwasher.23

        In February 2010, Tennessee identified unspent funds that were available for reallocation.
        During this reallocation, Tennessee changed its previous approach and distributed grants
        based on ranking, rather than by priority pool. As a result, eight schools that were not
        previously awarded funds received $141,000 in grants.

22
  The equipment in these 39 denied requests totaled $739,000.
23
  Based on the point system devised by Tennessee’s SA, the high school had a total point score of 39, while the
elementary school had a score of 37.

                                                                     AUDIT REPORT 27703-0001-HQ                   9
In addition to the State-specific problems, our Fast Report also found that the NO did not issue
guidance requiring ROs to review SA grant award processes. NO officials stated that they
believed they needed to get the funding out to the public as quickly as possible and believed a
pre-award application review was not necessary and was too costly. As a result, FNS could not
ensure that all States competitively awarded equipment assistance funds in accordance with
Recovery Act criteria and OMB and FNS guidance. In response to our Fast Report, FNS stated
that the additional guidance and technical assistance it gave to SAs fulfilled OMB’s requirement
of going “beyond standard practice.” We noted that FNS did increase the number of regularly
scheduled financial management reviews and management evaluations, and updated these review
processes to include Recovery Act-specific steps.24 However, the reviews for fiscal year 2009—
when all the Recovery Act equipment award processes occurred, did not include NSLP-specific
steps.25 No proactive reviews that would have examined the NSLP grant application processes
were conducted prior to the grants being awarded. Reactive steps performed during the financial
management reviews and management evaluations, such as reviewing equipment purchases to
ensure that they were authorized, are good internal controls. However, they can only be
performed after the grant funds are awarded and spent, leaving an agency without suitable
recourse options other than attempting to recover the funds from the SAs.

OIG recommended in the Fast Report, issued February 2, 2010, that FNS should provide the
necessary oversight to ensure that the remaining funds to be awarded are based upon the need for
equipment assistance in participating schools, with priority given to schools in which not less
than 50 percent of the students are eligible for free or reduced price meals under the National
School Lunch Act. During the continuation of the audit, we noted that SAs that were included in
this review changed allocation methods, providing funds to schools that had not received
assistance and that all NSLP Recovery Act equipment assistance grants have been disbursed as
of September 2011. Based on these changes, we modified the recommendation noted in the Fast
Report.

FNS employed the same controls in disbursing the Recovery Act funds that it had in place for its
standard competitive grant programs. These controls do not include a pre-award review of State
grant applications. Because OMB required agencies to go beyond standard practice to mitigate
risks in Recovery Act programs, we believe that ROs should have reviewed the SA award
criteria and application forms prior to their release to schools. Without such a review, FNS could
not ensure that the awards adhered to authorizing legislation and agency guidance. FNS should
implement proactive, pre-award reviews within its standard competitive grant award processes,
identifying areas that can be strengthened.




24
   FNS’ May 2009 American Recovery and Reinvestment Act Plan describes FNS’ plan to address the specific
oversight needs of the Recovery Act.
25
   The reviews focused primarily on FNS’ Supplemental Nutritional Assistance Program.

10      AUDIT REPORT 27703-0001-HQ
Recommendation 1
FNS should continue to update and implement adequate, proactive controls within its standard
competitive grant award processes, identifying areas that can be strengthened. This should
include procedures (as prescribed by FNS) to review selected requests for applications and grant
award evaluation processes prior to the SAs releasing the applications to potential subgrantees.

Agency Response
FNS supports this recommendation and agreed to update the current Management Evaluation process
conducted by ROs to include a review of the requests for applications and grant award evaluation
processes prior to the SAs releasing the applications to potential subgrantees. FNS estimates that
corrective action will be completed by November 30, 2012.

OIG Position
We accept FNS’ management decision for the recommendation.




                                                         AUDIT REPORT 27703-0001-HQ            11
Finding 2: FNS Should Ensure Accurate and Timely Recovery Act Reporting
The FNS NO incorrectly reported Recovery Act spending data on Recovery.gov for one of the
five States in our review for a period of five months, resulting in this information not being
reported to the public in a timely manner. We found that New Mexico’s SFAs started spending
Recovery Act funds in July 2009; however, the Financial Activity Report on Recovery.gov
reflected zero dollars spent on equipment grants until December 2009. The SA continued to
report that it had not spent any equipment assistance funds because the financial system
New Mexico used to track equipment purchases was not operating effectively. As a result, FNS’
equipment assistance grant outlays reported on Recovery.gov, were inaccurate and untimely.

OMB’s Recovery Act guidance, Updated Implementing Guidance for ARRA of 2009, requires
reporting to be updated on a weekly basis to enable Congress and taxpayers the ability to track
and monitor all Recovery funds with the level of transparency and accountability envisioned in
the Act.26

The FNS RO requested the SA to explain why zero dollars were being reported for
New Mexico’s grant payments. The SA did not respond to FNS’ requests until OIG’s
involvement in November 2009. RO officials informed us that they contacted State officials
several times via email and telephone, but received no response. Shortly afterwards, the
New Mexico SA changed the personnel responsible for its reporting. According to RO officials,
communication with the New Mexico SA has improved and the reporting issue has been
resolved.

Based on the FNS official response to our Fast Report,27 dated February 23, 2010, FNS stated it
was working closely with New Mexico SA officials to correct the problem in executing the
process. We monitored this issue noted and confirmed that FNS has since taken effective
measures to correct the Recovery Act reporting of expenditures in New Mexico. In addition, the
Financial Activity Report on Recovery.gov indicates that all NSLP Recovery Act equipment
assistance grants have been disbursed as of September 2011. Accordingly, we are making no
recommendations on this finding.




26
     OMB, M-09-15 Updated Implementing Guidance for ARRA of 2009, April 3, 2009.
27
     OIG’s Fast Report 27703-0001-HQ (1) was issued February 3, 2010.

12        AUDIT REPORT 27703-0001-HQ
Scope and Methodology

We conducted audit work at the FNS NO and the Southeast and Southwest ROs. We also
conducted audit work at SAs and their respective SFAs.28 We selected South Carolina, Texas,
and Tennessee, based on the volume of their Recovery Act grant award obligations, 29 discussions
with NSLP program officials, and overall OIG geographical audit coverage. New Mexico was
included because we noted reporting problems on FNS’ October 9, 2009, Financial and Activity
Report, and because FNS identified the State as the highest risk30 in its fiscal year 2010
management evaluation risk assessment. Oklahoma was selected because it distributed funds
directly to schools, instead of reimbursing them after purchases were made, which differed from
the process used by other States in our review. While we visited two SFAs in our sampled
States, in New Mexico we visited three. We increased the number of SFAs visited in
New Mexico after we found grant award data inconsistencies during our fieldwork. In total, the
SAs we reviewed accounted for 18 percent of the $100 million in Recovery Act NSLP
equipment assistance grant funds. As part of this audit, we assessed FNS’ internal control
system, reviewed how it was implemented, and tested it to determine if it was effective.

We conducted interviews with FNS national and regional officials and SA and SFA program
personnel; examined policies and procedures; reviewed documentation related to the grant award
process; and visually verified equipment purchased. We performed fieldwork from September
2009 through September 2011 and during that time, on February 2, 2010, issued a Fast Report to
FNS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




28
   We reviewed the following SFAs in five States: New Mexico (Grady, Mosquero, Portales); Oklahoma (Duncan,
Lawton); South Carolina (Charleston, Georgetown/Andrews); Tennessee (Oak Ridge, Memphis); and Texas
(Bonham, Roosevelt).
29
   FNS allocated $924,743 to New Mexico, $1,836,195 to South Carolina, and $2,275,738 to Tennessee in
equipment assistance grant funds.
30
   New Mexico’s risk rating of 103 indicated possible noncompliance with NSLP program requirements and was the
highest rating assigned to a SA.

                                                                AUDIT REPORT 27703-0001-HQ                13
Abbreviations
FNS ............................. Food and Nutrition Service
NO............................... National Office
NSLP........................... National School Lunch Program
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
RO ............................... Regional Office
SA ............................... State Agency
SFA ............................. School Food Authority
USDA.......................... Department of Agriculture




14     AUDIT REPORT 27703-0001-HQ
Agency’s Response




                 USDA’S
      FOOD AND NUTRITION SERVICES’
        RESPONSE TO AUDIT REPORT




                       AUDIT REPORT 27703-0001-HQ   15
United States
Department of
Agriculture      DATE:          January 24, 2012

                 AUDIT
Food and
Nutrition
Service          NUMBER:        27703-01-HQ

3101 Park        TO:            Gil H. Harden
                                Assistant Inspector General for Audit
Center Drive
Room 712


                 FROM:          Audrey Rowe /S/
Alexandria, VA
22302-1500
                                Administrator
                                Food and Nutrition Service

                 SUBJECT:      American Recovery and Reinvestment Act of 2009 National School
                               Lunch Program Equipment Assistance Grants

                 This letter responds to the official draft report for audit report number 27703-01-HQ,
                 American Recovery and Reinvestment Act of 2009 National School Lunch Program
                 (NSLP) Equipment Assistance Grants. FNS supports OIG’s objectives to ensure State
                 agencies (SA), school food authorities (SFA), and schools were acting responsibly and
                 within the parameters of ARRA. However, FNS strongly disagrees with OIG’s two
                 fundamental contentions – that FNS did not conduct adequate oversight of the grant
                 award process and that States’ grant processes did not ensure that grants were
                 competitively awarded based upon need for equipment assistance, with priority given
                 to schools with fifty percent or more students eligible for free or reduced price meals.

                 FNS does see merit in continuous improvement of proactive controls within its
                 competitive grant award processes, identifying areas that can be strengthened.
                 Therefore, FNS planned actions along with the proposed date of implementation are
                 specified below.


                 OIG Recommendation 1:

                 FNS should continue to update and implement adequate, proactive controls within its
                 standard competitive grant award processes, identifying areas that can be strengthened.
                 This should include procedures (as prescribed by FNS) to review selected requests for
                 applications (RFAs) and grant award evaluation processes prior to the SAs releasing
                 the applications to potential subgrantees.

                 Food and Nutrition Service Response:

                 FNS supports this recommendation. FNS will update the current Management
                 Evaluation (ME) process conducted by Regional Offices (ROs) to include a review of
                 the grant implementation procedures of a grantee. Updates will include the
                                                                                 P age |2




strengthening of the ME Guidance to include a review of the SA grant RFA, applicable
work plan, and a comparison of implementation procedures with the actual procedures
executed. During a ME, if FNS reviewers determine that: 1) exceptions to the grant RFA
were made during grant execution; and 2) potential grant awards to the SA are pending,
the RO will develop appropriate corrective action plans which could include submission
of documentation for selected future grant awards to the RO for review and approval
prior to implementation. This documentation may include RFAs and grant award
evaluation processes prior to the SAs releasing the applications to potential subgrantees.

Estimated Completion Date: November 30, 2012




                             AN EQUAL OPPORTUNITY EMPLOYER
Informational copies of this report have been distributed to:

Government Accountability Office (1)

Office of Management and Budget (1)

Office of the Chief Financial Officer (1)
 Director, Planning and Accountability Division
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday-Friday, 9:00a.m.- 3 p.m.               ED




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual's income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA's TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
